\ '•

No.

9.0-6856

r 1

1

IN THE

Suprvn* Court U.S.
FILED

SUPREME COURT OF THE UNITED STATES

SEP 2 9 2020
OFFICE OF THE CLERK

LaVon Oden

— PETITIONER

(Your Name)
vs.
Neil Turner,Warden NCCI

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

First Appellate District,/of Ohio.HMiiltgR {gpnnfey, Ohio
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

LaVon Oden
(Your Name)
NCCI P.O- Box 1812

(Address)
Marion, Ohio 4^0?

(City, State, Zip Code)

(Phone Number)

RECEIVED
OCT 2 7 2020
OFFICE OF THE CLERK
SUPREME COURT. U.S.

QUESTIONS
GROUND ONE- Was LaVon Oden’s Sixth Amendment:.Confrontation
Clause right to directly confront witnesses; the right to cross
examine adverse witnesses violated, when the trial court erred as
^fmn^ter °f ^aW ?y allowin§ witness Darryl Craig's identification
ot Oden as the shooter and the contents of Craig's text
messages?

GROUND TWO ^Did the Trial Court error as a matter of law by overruling Oden s motion for mistrial; and Abuse its discretion when
the trial court prevented trial counsel from cross-examining
witness Curtis Boston about his admitted out of court conversatio
ns with witness Darryl Craig, while in lockup, in which Boston
stated Craig influenced hisotestimony.? /
GROUND THREE Was LaVon Oden's Sixth Amendment right to the effec
five assistance of counsel; and Oden's Sixth Amendment right to
confront witness Darryl Craig violated, when trial counsel failed
to object,;to hearsay
evidence? If a petitioner is denied effectiv
.
e cross examination, would that be a constitutional error of the
first magnitude and no amount of showing or want of prejudice
could cure it?
GROUND FOUR Was LaVon Oden's Sixth Amendment right to the
effective assistance of counsel violated, when trialcounsel
conceded to the guilt of the petitioner?
GROUND FIVE Was LaVon Oden's Sixth Amendment right to the ;
effective assistance _ of counsel violated, when trial counsel ,\,i
tailed to file a motion to supress the identification by Robert
Johnson of Oden as the shooter?
GROUND SIX Was LaVon Oden's Fourteenth Amendment right violated
when prosecutorial misconduct rendered petitioner's trial
’
fundamentally unfair?

LIST OF PARTIES

[

All parties appear in the caption of the case on the cover page.

[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
Brookhart v. Janis, 384 U.S. 1, 3(1996)
Bruton v. United States, 391 U.S. 123
Chambers v. Miss., 410 U.S. 284
Moore v. United States, 429 U.S. 20
Lee v. Ill, 476 U.S. 530
Davis v. Alaska, 415 U.S. 308(1974)
Lockhart v. Fretwell, 506 U.S. 364, 372, 122 L.Ed.2d 180, 113
S.Ct. 838(1993)
Smith v. Illinois, 390 U.S. 129, 131(1968)
Strickland v. Washington, 466 U.S. 668, 104 S.Ct. 2052 80 L.Ed.
2d 674
U.S. v. Cronic, 466 U.S. 648,at 659(May 14th 1984)
United States v. Perez, 22 U.S. (9 Wheat) 579

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

6

CONCLUSION

10

INDEX TO APPENDICES
APPENDIX A“ Decision of ..State Court of Appeals
APPENDIX B- Affidavit or Declaration in Support of Motion for
leave to proceed In Forma Pauperis
APPENDIX C
APPENDIX D
APPENDIX E
APPENDIX F

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER
6

Bruton v. United States, 391 U.S. 123
-Lee v. Ill, 476 U.S. 530
Moore v. United States, 429 U.S. 20
United States v. Perez, 22 U.S.(9 whwat)579,6 L.Ed.2d 674
United States v. Cronic, 466 U.S. 648, at 659(May 14thl974)
Brookhart v. Janis-, 384 U.S. 1, 3(1996)
Davis v. Alaska 415 U.S. 308(1974)
Smith v. Illinois, 390 U.S. 129, 131(1968)
Strickland v. Washington, 466 668,. 104 S.Ct. 2052 80L.Ed 2d
6 /4
Lockhart v. Fretwell, 506 U.S.364,372,122 L.Ed. 2d:180
113 S.Ct. 838(1993)
Edwards v. Carpenter, 529 U.S. 446,451,120 S.Ct. 1587, 146 L
Ed.2d 518
Hartman v. Bagley, 492 F.3d 347, 358
Maples v. Stegall, 340 F.3d 433,438-39,2003 Fed.App.0296
1
Murray v. Carrier, 477 U.S. 478,488,106 S.Ct. 2639, 91 L.
Ed. 2d 397
1_

6
6
7
6-7
7
7
7
7
7
8
8
8
8

STATUTES AND RULES
\

OTHER

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported atQdpn T.Tnmpr; 7o?n tt q ipp .ToT^o9iru;pnr

[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at 0deny. Warden. North cent:, r.nrr , r.nmp 1

9U,S ‘ Pis£206937

[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix —h.__ to the petition and is
[ 3 reported af.Statev. Oden, 2016 ohio App Lexis 3817. Qr

[ ] has been designated for publication but is not yet reported; or,
[ 3 is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

[ 3 reported at
; or,
[ 3 has been designated for publication but is not yet reported; or,
[ -}4s unpublished.
1.

to

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was July 7t.h} 70?Cl_______
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ___________
, and a copy of the
order denying rehearing appears at Appendix
[ 3 An extension of time to file the petition for a writ of certiorari was granted
to and including_____ _
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was September 23,2016
A copy of that decision appears at Appendix
A
[ 3 A timely petition for rehearing was thereafter denied on the following date:
, and a copy of the order denying rehearing
appears at Appendix
[ 3 An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date)in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

enjoy thfrieht to" ^ ‘"V"1"?1 <’r°seouti°ns > the accused shaLL
enjoy the right to a speedy and public trial, by an impartial iuiY
°

s^ate fnd district wherein the crime shall have^een

J

committed which district shall have been previously ascertained
by law and to.be informed of the nature and cause ofthe
accusation; to be confronted with the witnesses against him; to
have the assistance of counsel for his defence.

Che SiXth
The confrontatio
°f the s*xth amendment may prohibit the admission of hears
evidence against a criminal defendant when the defendant lacks th
opportune to cross examine the out of court declarant? HoSeve?
the admission of the out of statements does not violate the
confrontation clause if the declarant testifies at trial and is
subject to cross examination.

FOURTEENTH AMENDMENT
All persons born or‘Ject
and of the'^stattl0>! thfreo^» :are citizens of the united states
any lfw Shinh^h.^TV y..reside- N° state sha11 make or enforce
^
which shall abridge the privleges or immunities of citizens
of the united states; nor shall any state deprive any person of
i e, liberty, or property, without due process of law , nor deny
to any person within its jurisdiction the equal protection of law

3

STATEMENT OF THE CASE

Proceedings in lower courts;
Petitioner, LaV°n Oden was indicted in Hamilton County, Ohio
on February 19 2013. On April 2^,2015, petitioner was convicted
y a jury. On May 18, 2015, Petitioner was sentenced by the trial
court of murder with firearm specification, three counts of aggravated robbery with firearm specification and having weapons
while under a disability. He was sentenced to 63 years ;L life
imprisonment. A timely notice of appeal was filed by appointed
appellate counsel on June 22, 2015.

Appellate jurisdiction was declined September 23, 2016. Oden
Rile^em^Th11 ^?pl^c^tion.for-'re°Pening under Ohio Appellate
h26
The first Dlstnct denied the application on the
lps* 0den bo?k no appeal to the Supreme Court of Ohio. Oden
2^18 aXm petJtlon by placing it in the prison maillon June 7,
0i8. A Magistrate Judge recommended that the petition be denied
ov!n f^d.obJectlons to the report, which the District court
overruled m dismissing the petition, January 2, 2020.
Oden s motions for reconsideration and to take judicial notice

litv S«rddeniHd* °d^n s/PPlication f°r Certificate of Appealabi

lity was denied, motion for m forma pauperis status is denied
as moot on July 7, 2020.
aeniea

Relevant facts of the case;
Witness Robert Johnson and Curtis Boston testified at the trial
identifying Oden as the shooter. Witness Darryl Craig did not
5Ut hld bext messages leading up to the incident were
introduced as evidence, as well as his identification of oden as
the shooter, without objection.

at the incidentnduringteitherdinterview?t;LOn B°St°n WaS Present
unti^he
didJnot aSree t0 testify against oden
until he was offered a 12 year deal. Boston admitted he sent a te
"WhitesMt"''? %fri?nd that said "Bra if I get looked up say ■
Jfobbed the- and shot"8! t0 ^ P^it^ir] told you that he r

4

Several crimestoppers tips came in identifying Boston as the
shooter and that Boston .was bragging about the incident on facebook. Boston testified he was incarcerated for this murder charge
as well as a seperate aggravated robbery from december of 2012
which did not involve this petitioner.
Boston admitted to speaking with Barryl Craig while in lock up
about the case which helped him remember some facts about the cas e
when trial counsel made an attempt to delve into the converstion
between Boston and Craig.in order to discern what was discussed;
the prosecution objected and the fecial court sustained the object
ion.
Further, During'the questioning of Boston trial counsel stated
I'm agreeing that "LaVon was the shooter". Trial counselin the
closing arguement stated, "Boston's testimonials shows that who­
ever did the shooting it was not purposeful nor intentional.
Prosecuter Mr.Tharp stated, the defendant has contact over and
over with Boston, telephone calls prior to the robbery.
Prosecuter Ms. Trantor stated and anvt a very important point,
your going to see texts from the defendant 20 minutes after the
shooting trying to get rid of a gun.
Robert Lenoff, a firearms examiner, testified there were no guns
submitted for comparison.
Petitioner . states these facts contains material needed for
the consideration of the questios presented, which are;
1)The Trial Court Erred as a matter of law by allowing hearsay
evidence to be admitted.
2)The Trial Court Erred as a matter of law by overrulingf defend­
ants motion for a mistrial; and preventing counsels inquiry.
3)Petitioner was denied the effective assistance of counsel for
failing to object to hearsay statements; and the denial of effect
ive cross examination.
4)Petitioner was denied the effective assistance of counsel when
counsel stated the defendant was guilty of a lesser charge
without the defendants approval of this tactic; and counsel
was ineffective for conceeding to the guilt of this petitioner
without the defendants approval.
5)Counsel was ineffective for failing to file a motion to supress
the identification by Robert Johnson prior to trial.
6)Prosecutorial misconduct rendered defendants trial fundamentally
unfair.
5

REASONS FOR GRANTING THE PETITION

Reason 1) The Trial Court Erred1in allowing hearsay evidence;
First Disftict Court of Appeals Opinion, thg court stated
that Although much of this evidence was inadmissible hearsay, we
cannot say, in light of the significant, admissible evidence of g
uilt, that the results of the trial would have been different abs
ent its admission and that a reversal is necessary to avoid a
manifest injustice.
The lower courts opinion was erroneous, because the court,
tailed to adjudicate the significant admissible evidence of
guilt they claimed existed to sustain this petitioner
conviction. This adjudication is needed to support the courts dec
ision of the harmless error analysis, Petitioner swears to this
court, that if the harmless error analysis is performed, the
court would clearly determine, from the facts of the evidence
, that the courts
harmless error analysis was not properly
_
applied to this issue of importance, (see GROUND ONE in habeas
petition)
Further the Magistrate Judge found this ground for relief
vas forfeited by procedural default when trial counsel made no
aontemporaneus objection. Petitioner states GROUND THREE
Lnefective assistance of counsel claim is "CAUSE" to excuse this
procedural default.
Therefore, the lower court has decided this federal question
m a way that conflicts with relevant decisions of the U.S.
Supreme Court.
Bruton v. United
391 U.S. 12.3:
loore v. United States. 429 U.S. 20; Lee III. 476 U.S. 530.
Reason 2) The Trial Court Erred by overruling defendants motio
t for a mistrial;
.he First District Courts Opinion stated; "We overrule because th
: Appellant demonstrated neither that Boston had discussed what
lad been testified to in court in violation of the ord'ern nor
■hat a fair trial was not possible.
The lower courts opinion was erroneous, because, in fact it
as the trial court that prevented the petitioner from demonstati
■g any possible prejudice both at trial and the appellate court.
he trial court did so, when they prevented the necessary questio
mg
determine if any prejudicial influence occured to Boston'
testimony.
Trial counsel was prevented from performing the necessary
adversarial testing" to demonstrate prejudice. This establishes
n instance of the third prong Cronic standard of review which "o
cures when counsel is placed in circumstances in which competent
ounSel very likely could not render assistance.
The appellate court did not come to their decision with
onsideration as to whetherp prejudice should be presumed.
See—------U.S. v,. Cronic, 466 U.S. 648.at 659 (Mav 1.4th 1984).
Since thispetitoners convictions were based solely on the
estimony of these witnesses, the violation of the seperation
6 .

ZZV.S. (Wheat) 579. 6 I..Ed. 16S 4

Reason 3) Petitioner was denied effective assistance of counsel
tor failing to object to hearsay statements; Petitioner was denied effective cross examination;

the First District Opinion, the court stated the record fails
to,disclose a reasonable probability that, but for the alleged
omissions of trial counsel, the results of Odenffi trial would
have been different.
Jwe^1^Wer-COjrtS opinion was erroneous, because the court alreaTL«#iermin^d,^UCh °f this hearsay evidence was inadmissible
HEREPeRE,the first prong requiRgng the petitioner to show that
counseis representation fell below a reasonable standard has
already been determined and this court can proceed to the
prejudice prong."
If this court was to proceed to the prejudice prone a courtmust ask whether counsels performance renders the result of the
trial unreliable or the proceeding fundamentally unfair.(See
_Ff etwa-U.i.-5_Q-6,.l U,„S. 364,377,1?? T^Ed.2d 180. 113
Citing jtnckland v. Washineton 466 U.S. at 68 7.
Prejudice can be demonstrated under the Strickland staSfdar^
because the hearsay evidence that was introduced influenced
the jury m drawing the conclusion of guilt.
In addition, no specific showing'of prejudice was required
1in,%Tls I’ Alaska, 415 U.S. 308. because the petitioner
had been denied the right of effective cross examination
which would be a constitutional error of the first magnitude
and no amount of showing oR want of prejudice can cure it Smith y. Illinois, 390 U.S. 129.131. Brookhart v. Janis. 384
U * S . 1,3 quoting,.!!...S^v_Cronic.,_466.TJ..S..-648 .at- fiSQ
In this case the petitioner was denied the right to
effectiveiy cross examine witness Darryl Craig, if prejudice
1Lt° be Presumed
situation denying the petitioner to
effective cross examination, as demonstrated above, then
prejudice must be presumed in this case. If prejudice is to be
presumed then the appellate courts application of the
Strickland standard in requiring the outcome of the trial to
be different was erroneous. The appellate court clearly did not
review
i
ithe _oa?e taking into consideration the Cr§nic exceptions.
The lack of the haUfESSlARIAL testing of the hearsay evidence
y ^al counsel rendered the trial proceedings fundamentally
unfair. When trial proceedings are fundamentally unfair prejudice
has been demonstrated pursuant to Cronic, Lockhart, and stricklan
The lower courts opinion conflicts with relevant decisions of thi
s court.
7

Counsel was Ineffective for Failing to renew the motion for mistr
ial:

?;d4rs;;i1r“:*c4oS;.r“?nhf;:

Fsl°n

inquiries into this issue to determine the actual effect on
the proceedings. This issue could have been better addressed
once all the relevant facts were presented;
Therefore, counsel should have renewed the issue at the
conclusion of the trial.

Reason 4,5,6) The district court found oden s three claims of
Ineffective assistance of Appellate counsel to be procedurally
defaulted because he did not appeal to the Ohio Supreme Court,
However, this was not the fault of the petitioner.
The lower courts opinion was erroneous, because, In order
Toy appeal the application of reopening to the Ohio Supreme
Court, the petitioner must recieve a copy of the Appellate
Courts opinion. It is the reponsibility of the clerk of courts
to mail the opinion to the petitioner once the case has been
ruled upon.
I? this^instance one of two possibilityes occured either; the
clerk of Hamilton County never mailed the opinion to the petition
er; or the staff at NCCI failed to deliver the opinion to the
petitioner. In either event oden was unaware of the final
judgement that was rendered by the court of appeals. If this
is so, then the Clerk is in error.
Action
UAUSt

to exGHgE a procedural fiar. Maples v. Step-all

14f) F. 3h

Nevertheless, "the existence of cause.for a procedural default
must ordinarily turn on whether the prisoner can shoe that some
jective factor external to the defense impeded counsel's effort
to comply with State s procedural rule". Murray v. Carrier 477 IT
E‘l--2-d-j-9.7.,,-Edwar ds .v... Carpenter . ”52
9—IL..S..,.446., 4S_Ct ._158 7 T146 L. Ed " ’
"
The petitoner pleads with this court to order Hamilton,County Fir
st District Court of.appeals,through an affidavit, to prove the c
ourtmaiied the opinion to this petitioner. The prejudice tothe
1owthe d!nT1,ai °fc review of his ApplicatffDN to reopen
° J.,
the 0hl° a”d U.S. Supreme Court, a review the petitioner
otherwise entitled to. These claims demostrate substantial
errors that occured during trial that would entitle this
petitioner^to habeas relief in a form of a new trial.
EAUSE b<rinS shown; the lower courts decision to deny
relief due to procedural default was in error. The lower courts
opinion was and is in conflict with relevant decisions of the U S
supreme Court.
8

The National Importance of having the Supreme Court decide these
question s mvoled; The lower courts decision conflicts with
relevant.decisions of this court. These questions goes beyond
the particular facts and parties involved;instead; These question
tocuses on issues of•importance dealing with unfair constitutiona
1 violations, which is in fact, the U.S. Supreme Court s primary
concern.
The importance of the case to me and other's sim56!£Y situated;
This case is important to me and others becausejWithout the
’
opportunity of review in this court, me and others would be at
the discretion of the lower courts unprincipled decisions.
The Supreme Court's review and discretion is essential to cases
with issues as such as mine and others simply cause,it may be an
issue of liberty and death.

9

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,
(K

Date:

\f<n^ Qdw°l~Z 6-2-6

10

